No. _ _
IN THE

~upreme QI:ourt of tbe Wniteb ~tateg
SIH PARTNERS LLLP, EXPLORER CORPORATION,
TAX MATTERS PARTNER,

Petitioner,
V.

COMMISSIONER OF INTERNAL REVENUE,

Respondent.
CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 30th day of September, 2019, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondent:
Noel J. Francisco

SOLICITOR GENERAL
U.S. DEPARTMENT OF JUSTICE

950 Pennsylvania Ave, NW
Room 5616
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@usdoj.gov
Appellate.Taxcivil@usdoj.gov

Julie A. Porter Gasper
Richard A. Rappazzo

INTERNAL REVENUE SERVICE

4050 Alpha Road
14th Floor
Dallas, TX 75244
(214) 413-6010

